No.

71

IN THE SUPREME COURT OF THE UNITED STATES

02/15/21

VALENTIN SPATARU, Petitioner,
vs.
RICK RAMSAY, Etc., et al., Respondent.

FILED
MAR 1 2 2021
On Petition For Writ Of Certiorari to the

§®Im°eF(»Brsk

The United States Court of Appeals for The Eleventh Circuit

PETITION FOR WRIT OF CERTIORARI

by Valentin Spataru, pro se
c/o CILK - Center for Independent Living
103400 Overseas Hwy. #243, Key Largo, FL 33037
Mobile cell phone: 305 301 3001
Email: valentin.spataru.macc.cpa@gmail.com , valespa@outlook.com

To the Honorable Chief Justice of The United States Court of Appeals for The Eleventh Circuit:

QUESTIONS PRESENTED
1. Whether the Courts may or may not dismiss an Appeal and Motion to Proceed In Forma Pauperis on
Appeal when the Appellant has not paid the docket fees because the Appellant has a lot less than
$595,000 to purchase his first home. Truly, Medicaid allows the applicant's equity value in their home
(fair market value minus debts if owned singly) to be $595,000 or less, although some states use a
higher limit of $893,000, before charging fees. Therefore, the Courts may not charge such applicants
docket fees, too.
2. Whether the Courts, without allowing further amendment of the Amended Complaint, may or may
not dismiss a case with prejudice as baseless and delusional, even though PETITIONER believes that
further amendment will prove his Complaint.
3. Whether detention is or is not cruel and illegal in a car in which the temperature inside the separate,
isolated detention area (SDA) -that had no functioning a/c (unacceptable for a rich state, FL, in a rich
country, the USA) and no open windows; the back SDA was separated from the front a/c by a thick
wall that insulated it- of the car exceeded 104 degrees F, the limit when the human thermoregulatory
mechanism starts to be overwhelmed and bodily tissues, especially in the brain, start dissolving and
will need more than 20 years to heal or will never heal. Whether the other abuses are cruel and unusual
punishment. Whether PETITIONER is a victim of illegal cruelty. One ought to know what issues to
expect before visiting a place.
4. Whether officials may conspire to invent fines which do not serve any public interest but benefit
themselves and their party. Whether officials may conspire to make their victims lose their cases by
impairing their victims’ cognitive skills, including their adequate perception of their own cognitive
decline caused by the abusive officials. Whether a Court may dismiss a complaint without due process,
before the independent FBI investigators report their findings. Whether the PETITIONER'S failure to
appeal a disputed judgment on time may allow another, higher-level Court to dismiss a case, even
Page i

though a conspiracy group has affected the plaintiffs mind through hyperthermia and other excessive
stresses, which postponed the moment when the plaintiff understood his injuries and complained to
another, higher-level Court.
LIST OF PARTIES
All parties do not appear in the caption of the case on the cover page. A list of all parties to the
proceeding in the court whose judgment is the subject of this petition is as follows:
1. Sheriff Department of Monroe County, FL (SDMC), 5525 College Road, Key West, FL 33040, in
c/o gre g@purdv I aw. com: his Attorneys are Gregory J. Jolly at Purdy, Jolly, Giuffreda & Barranco, P.A.,
2455 East Sunrise Boulevard, Suite 1216, Fort Lauderdale, Florida 33304, Telephone (954) 462-3200,
Telecopier (954) 462-3861, Email: areadjpurdylaw. com:
2 . Cody Kern, its Deputy, in c/o greg@purdvlaw.com.
3 . Deputy Madnick, its Deputy, in c/o greg@purdvlaw.com.
4 . Rick Ramsay, its Sheriff, rramsav@kevsso.neL (305) 292-7001,
5 . Anitere Flores, FL State Senator, in c/o Dnordby@shutts.com.
6. Daniel E. Norby, Esq., her Counsel, Dnordbv@shutts.com. Shutts & Bowen, LLP, 215 South
Monroe Street, Suite 804, Tallahassee, Florida 32301,
7 . Jeremiah Hawkes, Esq., her co-counsel, hawkes.ieremiah@t1senate.gov. The Florida Senate, 302
The Capitol, 404 South Monroe Street, Tallahassee, Florida 32399,
8 . other involved FL legislators, not yet identified, in c/o Dnordbv@shutts.com:
9. Monroe County (MC), in c/o Hall-cvnthia@monroecountv-fl.gov.
10 . Roman Gastesi, its administrator, in c/o Hail-cvnthia@monroecountv-f1.gov.
11. Sylvia Murphy, its commissioner, in c/o Hall-cvnthia@monroecountv-f1.gov.
12 . other involved employees of Monroe County, not yet identified, in c/o HallPage ii

cvnthia@tnoiiroecountv-fl.gov.
13 . Cynthia L. Hall, Esq., their Counsel, Hall-cvnthia@monroecountv-fl.gov. Monroe County
Attorney's Office, 1111 12th Street, Suite 404, Key West, Florida 33040;
14 . The Sixteenth -for MC- Judicial Circuit Court, in c/o IVleghan.Daigle@invfloridalegal.coni.
15. Luis Garcia, MC Circuit Judge, in c/o Meghan.Daigle@mvfloridalegal.com.
16 . William R. Ptomey, former MC judge, in c/o Meghan.Daigle@mvfloridalegal.com.
11. Meghan B. Daigle, Esq., their Counsel, Senior Assistant Attorney General, Office of the Attorney
General (OAG), PL-01 The Capitol, Tallahassee, Florida 32399, Meghan.Daigle@mvfloridalegal.com.
18 . Stevi Parker, their counsel assistant, OAG, stevi.parker@mvfloridalegal.com:
19 . Florida Auditor General, fiaudgen@aud.state.fi.us. 111 W Madison St, Tallahassee, FL 32399,
20 . its involved employees, not yet identified, in c/o flaudgen@aud.state.fl.us:
21. Florida Department of Financial Services, 200 E. Gaines Street, Tallahassee, Florida 32399-0338,
ph. (850)413-3122,
22 . its Administrator, Kelly Hagenbeck, South Tort Claims Unit, Division of Risk Management,
kellv.hagenbeck@mvfloridacfo.com. ph. (850)413-4866,
23 . its Administrator, Chris Taul, Federal Civil Rights Claims Unit, Division of Risk Management,
ph. (850)413-4858, Chris.Taul@.nivfloridacfo.com.
2 4. its other involved employees at all times material, not yet identified, in c/o
Chris.Taul@myfioridacfo.com:
2 5 . Hampton Inn, Inc. (HI), in c/o sop@cscglobal.com.
2 6. United States Corporation Company (USCC), its Registered Agent, sop@cscglobal.com -the
PETITIONER respectfully asks the Court to order USCC to accept service of documents by email
2 7 . Hilton, Inc., owner of HI, in c/o sop@cscglobal.com.
Page iii

2 8. the involved employees of HI, Hilton, and USCC, at all management levels at all times material,
not yet identified, in do sop@cscglobal.com.
2 9. Paul Thomas, HI employee at 102400 0/S Highway, Key Largo, in do sop@cscglobal.com.
30 . Chavone Wilson, HI employee at 102400 O/S Highway, Key Largo, in do sop@cscglobal.com.
31. J. Agent, HI employee at 102400 O/S Highway, Key Largo, FL, whose name he does not know,
thus the PETITIONER refers to the person as J. Agent, in do sop@cscglobal.com.

RELATED CASES
• Spataru v. Ramsay, Etc., et al., No. 4:19-cv-10132-KMM, U. S. District Court forthe Southern
District Of Florida. Judgment entered Apr. 23, 2020.
• Spataru v. Ramsay, Etc., et al., No. 20-11972-B , U. S. Court of Appeals for the Eleventh Circuit.
Judgment entered Nov. 16, 2020.

TABLE OF CONTENTS
QUESTIONS PRESENTED

i

TABLE OF AUTHORITIES

.v

OPINIONS BELOW

1

JURISDICTION

2

INTRODUCTION

2

RESPONDENTS AND VIOLATIONS

4

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

10

STATEMENT OF THE CASE

14

REASONS FOR ALLOWANCE OF THE WRIT

32

Page iv

CONCLUSION

40

APPENDICES

41

Appendix A - The United States Court of Appeals for The Eleventh Circuit (USCA11) dismissed
Petitioner's Appeal and Motion to Proceed In Forma Pauperis on Appeal because the PETITIONER has
not paid the docket fees.

A1-3

Appendix B - The United States District Court for the Southern District Of Florida (USDC SDF)
wrongly dismissed the case with prejudice on 04/23/2020
Appendix C - Judge Garcia filed the dismissal of the PETITIONER'S claim on March 6, 2017.

A4-7
A8

Appendix D - The GMAT report shows how lousier PETITIONER did for the last section, the
integrated reasoning, two months after the wrongful arrest and after he had studied for almost nine
months, 12-15 hours a day, almost every day.

A9

TABLE OF AUTHORITIES

CASES
Albright v. Oliver, 510 U.S. 266, 271 (1994)............................... ................

37

Brown v. City of Huntsville, Ala., 608 F.3d 724, 734 n. 15 (11th Cir. 2010)

37

Commonwealth Fed. Sav. and Loan Ass'n v. Tubero, 569 So. 2d 1271, 1273 (Fla. 1990)

36

Estate of McCall v. U.S., 134 So. 3d 894, 909 (Fla. 2014)

39

Filartiga v. Pena-Irala, 630 F.2d 876, 883 (2d Cir. 1980)

13

Finch et al. v. Wichita, Kansas, City of, et al., 6:2018cv01018

15

Hazel-Atlas Glass Co. v. Hartford-Empire Co., 322 U. S. 238, 248

35

Madiwale v. Savaiko, 117 F.3d 1321, 1324 (11th Cir. 1997)

37

Page v

Marbury vs. Madison, 1803

39

N. Broward Hosp. Dist. v. Kalitan, 219 So. 3d 49, 57 (Fla. 2017)

39

Overton v. Jones, 155 F. Supp. 3D 1253

36

Richardson v. State, 246 So.2d at 775 (Fla.1971)

36

United Auto. v. Cty. Line Chiro, 8 So. 3d 1258 (Fla. Dist. Ct. App. 2009)

36

United States v. Stanley, 483 U.S. 669 (1987)

15

CONSTITUTION
U.S. Const. Amend. 1

10,36

U.S. Const. Amend. TV

10,21,37

U.S. Const. Amend. V

8, 10, 24, 33,35

U.S. Const. Amend. VI

10, 24, 33,36

U.S. Const. Amend. VIII

10, 24, 33

U.S. Const. Amend. IX

11

U.S. Const. Amend. XIV, sec. 1

11,36, 39

State of Florida's Constitution, Article X, Section 11

9, 13,38

STATUTES
18 USC § 1512, retaliation (18 USC § 1513), access device fraud (18 USC § 1029), interstate threats
or extortion (18 USC § 875), computer misuse (18 USC § 1030), and the malicious conveying of
false information (18 USC § 2292)

40

18 USC §§ 1961-1968

11

18 USC §§241, 242

9, 11,37

29 USC § 794

9pp.

Page vi

34 USC § 10228

11

34 USC § 12601

9, 11,37

42 U.S.C. §1983

12

42 USC § 12131

9,11

42 USC § 1985

9, 12

42 USC § 2000d

11,40

42 USC § 290cc-33

9,11

Fla. Stat. § 327.74

13,37

Fla. Stat. § 394.459

13,33

Fla. Stat. § 810.08.2b,

12,38

Monroe County, FL, (Mo. Co.) Code of Ordinances (CO), Ch. 26, Art. IV.

12-13

Mo. Co. CO 26-96

13,39

Mo. Co. CO 26-98

6, 9, 12,37,39

Mo. Co. CO 26-99

13

OTHER AUTHORITIES
The United Nations' Universal Declaration of Human Rights

13,40

Florida Bar Journal, Sovereignty Lands in Florida: It's All About Navigability (Part I), January 2002,
Volume LXXVI, No. 1

38

Scientific Articles

14-40

Page vii

PETITION FOR WRIT OF CERTIORARI
PETITIONER respectfully petitions this Court for a writ of certiorari to review the judgment below.
OPINIONS BELOW
1. The United States Court of Appeals for The Eleventh Circuit (USCA11) dismissed Petitioner's Appeal
and Motion to Proceed In Forma Pauperis on Appeal because the PETITIONER has not paid the docket
fees. A copy is attached in appendix A. However, SPATARU did not pay the docket fees because he lacked
adequate funds; truly, Medicare and Medicaid allow a first home value of $595,000 before charging the
beneficiary fees, and the PETITIONER has had a lot less than $595,000 to purchase his first home.
2. The United States District Court for the Southern District Of Florida (USDC SDF) wrongly dismissed
the case with prejudice on 04/23/2020 as baseless and delusional. The order states, "Because Plaintiff has
already amended his original Complaint, see (ECF Nos. 1, 11), and Plaintiffs allegations are frivolous,
further amendment of the Amended Complaint is futile. "A copy is attached in appendix B. However,
SPATARU's Complaint is not futile. RESPONDENT KERN illegally arrested and directly caused severe
hyperthermia to PETITIONER; indeed, during his abusive detention in an SDMCs car by RESPONDENT
KERN, the temperature inside the separated, isolated detention area (SDA) -that had no functioning a/c
(unacceptable for a rich state, FL, in a rich country, the USA) and no open windows; the back SDA was
separated from the front a/c by a thick wall that insulated it- of the car exceeded 104 degrees F, the limit
when the human thermoregulatory mechanism starts to be overwhelmed. The other RESPONDENTS also
are liable for injuries suffered by the PETITIONER, as you can see below.
3. In a prior lawsuit, the PETITIONER sued in the Court of the State of Florida for negligence only Sheriff
Rick Ramsay, only in his official capacity as the Sheriff of MC, and the PETITIONER did not write the
analysis of the factors which made the temperature in the detaining LE vehicle illegal. The Circuit Court of
Monroe County (CC) ’s Judge Garcia dismissed the PETITIONER’S claim against the Sheriff for failure to
appeal the criminal Court's judgment on time, even though a conspiracy group had affected him mentally

Page 1

with hyperthermia and other excessive stresses, which had impaired the PETITIONER'S cognitive skills,
including his reasoning and adequate perception of his cognitive decline, at his arraignment in 2015 and
afterward, and his understanding of the legal process and his rights and obligations. Judge Garcia filed the
dismissal of the PETITIONER’S claim on March 6, 2017. A copy of the dismissal is attached in appendix C
and should also be at https://www.monroe-clerk.com/. However, the Courts should allow him to sue the
RESPONDENTS after he detected his cognitive decline and its cause even though he did not appeal the
Criminal Court's judgment on time.
JURISDICTION
The jurisdiction of this Court is invoked under 28 USC § 1254(1). The questions and case are of national
importance, too. A timely petition for rehearing was denied by the United States Court of Appeals on the
following date: November 16, 2020, and a copy of the order denying rehearing appears at Appendix E.
INTRODUCTION
1. Https://www.supremecourt.aov/filinqandrules/electronicfiling.aspx
writes, "Filings from pro se parties are submitted only on paper, but will be scanned and made available
electronically on the Court’s docket"; thus, PETITIONER submits only one paper copy of the petition;
PETITIONER respectfully asks the Court to let him know if the Court need more copies.
2. PETITIONER will be referred to as "PETITIONER" or "SPATARU." Monroe County will be referred to
as "MC"; Key Largo as "KL." RESPONDENT Rick Ramsay, Sheriff of Monroe County, Appellee, or
Defendant below, and his lawyers or attorneys will be referred to as "RR"; Florida as “FL”; Florida
Department of Financial Services as "FDFS." Other terms and acronyms will be defined as they appear.
PETITIONER will use bold letters to ease the reading. If PETITIONER does not know which
RESPONDENTS are guilty of a violation, PETITIONER will use the term "Offenders.”
3. Respectfully, PETITIONER asks the Court to accept his motions, forms, pleadings, and other
communications as they are or assist him in correcting them. Indeed, due to the mental injuries part
Page 2

-directly, at least 20%, proximately, at least 50%- of which the RESPONDENTS caused him or aggravated,
such as depression, anxiety, headaches, memory problems, lack of concentration and attention, and other
undiscovered yet issues, PETITIONER is not able anymore to read and memorize all the rules of
procedures promptly and thoroughly. Furthermore, PETITIONER has no money to hire lawyers for his
case because his injuries stop him from keeping a job that would provide income for him to pay the
lawyers' fees. Also, PETITIONER can not find an attorney to help him with this case on a contingency
basis due to the many work-hours needed compared to the low-profit potential for an attorney;
PETITIONER respectfully asks the Court to order the legislators in Florida to respect the Constitution of
the USA, which forbids cruelty, corruption, and abuses, and immediately to eliminate all abusive limits for
remedies, as the State of Oklahoma did recently; "the Oklahoma Supreme Court ruled that arbitrary caps on
pain and suffering damages imposed by the Legislature are unconstitutional. In 2009, the majority in the
Legislature pushed through legislation to limit pain and suffering damages despite repeated warning that it
was unconstitutional." https : / /kfor, com/2019 / 04 72 3 /oklahoma-supreme-courtinvalidates-civil-i ustice-damaaes-cap/. Also, "Only 16% of those who reported having
civil legal problems during the past year received assistance [in all Florida; the % is lower in S. FL]."
https://www.lsc.gov/media-center/publications/fiscal-year-2Q18-budgetreauest#footnoteref5 llelm3b.
4 . For justice, civilization, and progress of our country, PETITIONER respectfully asks the Court
urgently to create and ask the legislators to approve a new Public Office with a name such as "Public Civil
Attorney Assistance for Mentally Injured Persons," that must offer - free or for credit or loan given from
the public budget - professional, independent legal help in civil cases to him and other persons in similar
situations, who do not have the necessary mental capacities anymore wholly and promptly to study,
understand and memorize the Laws and Courts' Procedures to represent themselves to prove their
complaints on time. If the Legal System does not offer such legal help, the victims will not be able to prove
their claims, thus will not be compensated, and the perpetrators will not be punished, thus will be
Page 3

encouraged to cause more suffering even to more persons, and even kill, thus to vitiate and impair more our
communities. Let us make such assistance a civil right in all states and countries.
https://www.startpaae.com/do/dsearch?
auerv=map+countries+where+free+civil+public+attornev+for+person+with+co
anitive+disabilities&cat^web&pl^extchrome&lanauaae^enalish&extVersion-l.1.0
5. SPATARU's last activism regarded the negligent Covid spread which consumed public funds from other
destinations, including legal and housing assistance. He asked his neighbors and other people who spoke to
him to initiate an investigation into why officials in our country allowed infected international passengers
to enter the country since December 2019 without tests and quarantine. What was the required procedure in
case of biological warfare, and who wrote it? Was it correct? Did our country officials forget the risks of
biological attacks? Why did they neglect their duties? Were they microwaved or corrupted by our enemies
disguised as friends? What is the procedure proposed now by each political party in case of biological
warfare? Is it correct? SPATARU has proposed to sue the officials who allowed infected international
passengers to enter the USA without tests and quarantine. Thus, SPATARU has become the target of the
organized crime that spread Covid-19. Respectfully, SPATARU requests the Court to order DOJ to
investigate and forbid the profiteering from Covid-19 tests, treatments, masks, vaccines, ...; and investigate
as a crime each death due to Covid-19, each early or unusual death, and each unusual accident. I offer to
volunteer for the professional investigators.
6. Respectfully, SPATARU requests the Court to allow him to file all his future documents by using the
Court's electronic system to save valuable resources by not printing and mailing; and to send all orders to
him by email, too.

RESPONDENTS AND VIOLATIONS

Page 4

1. RESPONDENTS the Sheriff Department of Monroe County (SDMC), FL, and its involved
employees in their private and official capacities include
2. RESPONDENTS Deputy Cody Kern (DK) and Deputy Madnick (DM) employed by the Sheriff
Department of Monroe County (SDMC), Key Largo, FL, in their private capacities and their official
business capacities, for not providing to the PETITIONER appropriate Law Enforcement (LE) services,
including investigations and safe conditions during detention in vehicle; they acted under color of state or
local law falsely to arrest him without any cause and injured him unreasonably. They have severely reduced
the PETITIONER'S integrated reasoning skills -see Appendix with the GMAT report-, which has not served
any public interest. Thus, they have destroyed directly at least 15% -proximately, at least 45%- of the
PETITIONER'S intellectual, cognitive skills; and have caused him PTSD; and have caused him new and
worsened old brain injuries. They have committed hate crimes. PETITIONER respectfully asks the Court
to order SDMC to make their email addresses public to serve them directly;
3. RESPONDENTS SDMC and its Sheriff, Rick Ramsay (RR), rramsav^keysso .net, in his official
capacity as Sheriff of Monroe County, his private capacity, and all his other capacities; RR and SDMC are
liable for not providing adequate training and law enforcement (LE) services, including investigations and
detention conditions and services; RR and SDMC acted under color of state or local law and injured the
PETITIONER unreasonably. The PETITIONER refers to RR, DK, DM, SDMC, and FDSF with its
involved employees and agents as Group RRa;
4. RESPONDENTS other Sheriff Deputies of SDMC, whose names the PETITIONER do not know, thus
the PETITIONER refers to them as John Jail 1-?, John Deputy 1-?, in their private and their official
business capacities, for not providing proper services during the PETITIONER'S detention; they acted
under color of state or local law and injured him unreasonably; the PETITIONER refers to them, RR,
SDMC, and FDSF with its involved employees and agents as Group RRb.
5 . PETITIONER assumes that RESPONDENTS DK, DM, John Jail 1-?, John Deputy 1-?, and the
Sheriff Department of Monroe County (SDMC), FL, are represented by SDMC's General Counsel Patrick
Page 5

McCullah, pmccullahgkeysso .net:
6. RR and his employees knew, or -in the exercise of reasonable care- should have investigated and known,
that the PETITIONER was lawfully swimming according to MC CO, Ch. 26, Art. IV, Sec. 26-98 (b) and
Florida's Constitution, Article X, Section 11, was not causing any problems, was not trespassing, and
should not have been arrested, detained, and convicted. PETITIONER wrote a complaint to the FL Office
of the Inspector General, FraudWasteMisUse@mail.dc.state.fI.us. on January 21, 2016, with no answer
about the results of the investigation. However, "Police must not be allowed to investigate themselves
but must be subject to independent and unbiased civilian oversight" and "'Blind faith in your leaders,
or in anything, will get you killed,' Bruce Springsteen"-https://truthnottasers.blogspot.com.
7 . RESPONDENTS the Office of Social Services of Monroe County, FL, and its Administrators and
involved employees in their private capacities and official business capacities include Monroe County
(MC), located in Florida, The Office of the Commissioner of District 5 of MC (0CD5) -which includes
Key Largo (KL)-, Commissioner Sylvia Murphy, boccdis5@monroecountv-fl.gov. of District 5 (D5 or KL)
of MC, in her private capacity and her official business capacity; MC Administrator Roman Gastesi,
gastesi-roman@monroecounty-fl.gov. in his private capacity and his official business capacity. "The
following departments fall under the direct supervision of the County Administrator: [...] Social Services
(SS)" -https://www.monroecountv-fl.gov/673/Countv-Administrator: MC, 0CD5, Commissioner Sylvia
Murphy, MC Administrator Roman Gastesi, and SS have acted under color of state or local law, and have
failed to provide for the PETITIONER’S recovery -after MC and FL DOT injured him- adequate housing
and other social services, including health care and civil law advice for a person with disabilities, which
injured him more and unreasonably, and made him vulnerable to more abuses by others. Even though the
PETITIONER was injured and disabled in 2013 due to the illegal lack of a required public traffic sign,
which has caused him pain during many activities required by boating, the PETITIONER still has had to
live in his anchored boat because MCSS and the State of Florida (FL) has not provided him with adequate
recovery housing. The PETITIONER had to do his swimming therapy in open public water, for which the
Page 6

PETITIONER was arrested and detained wrongly and abusively as he was lawful at all times. MCSD only
should have warned him about the local, obscure rule to swim only without snorkel during the five days
and that they considered his snorkeling therapy illegal, provided him reasonable alternatives safely to do
his swimming therapy, and should not have arrested him and injured him; MCSS should have provided him
with adequate public housing and should have given him a pass at the YMCA or other safe pool. MCSS
knew or should have known about the lack of professionalism of the LEEs, but MCSS did nothing to
protect and warn him. MC acted under color of state or local law to neglect and injure him unreasonably.
The PETITIONER refers to them as Group MC (MC, SS, OCKL, and the persons in charge of them,
including Commissioner Sylvia Murphy and MC Administrator Roman Gastesi). Due to injuries, the
PETITIONER had no job and income. Due to FL's and MC’s negligent lack of care -even though MC
collects more than half a billion dollars in taxes, see https://floridataxwatch.org. and sends the money to
FL- MC and FL did not provide adequate recovery housing and therapies. Indeed, the PETITIONER was
placed on a waiting list in KL, but Group MC moved other, more recent applicants ahead of him; thus, the
PETITIONER had been homeless and had to do his swimming therapy in open public water, for which the
PETITIONER was arrested and detained wrongly and abusively. PETITIONER respectfully requests the
Court to ask the FBI to investigate the abusive changes on the lists.
8. Moreover, the RESPONDENTS IN GROUP MC knew or should have known about Neece Center, the
recovery shelter in Key West, but have not told him about it -even though Neece Center is not adequate,
lawful for health recovery, it is less torture than wrong, disabling arrest and detention-. PETITIONER
respectfully asks the Court to investigate whether the elected officials in MC and FL -and their employees,
agents, or contractors- lied about their education and licenses to be employed in posts with higher salaries,
for which they were not qualified; thus, they injured him and others. MC -and all South FL- have not built
adequate, sufficient public housing; thus, the waiting lists are very long and closed most of the time. The
PETITIONER offers to volunteer for the construction of new, and auditing of all, public housing.
PETITIONER respectfully asks the Court to investigate whether the funds for the public recovery housing

Page 7

in South FL have been embezzled; compare how the officials in MC and all South FL have developed
-including the extent of South FL's public housing and other community services- their regions with what
the best, civilized, and advanced laws and practices in the USA and the world require; and order the
officials to eliminate all the causes of the long and closed lists for the public recovery housing in South FL.
9 . RESPONDENTS the Courts of Monroe County, FL, and their Administrators and involved
employees in their private capacities and official business capacities include Judges Ptomey and Garcia
of the Court of Monroe County (CMC), FL, in their private and their official business capacities, CMC, the
judges of Florida's Third District Court of Appeal (3DCA) in their private and their official business
capacities, and 3DCA -PETITIONER refers to them as Group State Courts, which also includes FDFS- for
not providing proper judicial and legal defense services; they acted under color of state or local law and
injured him unreasonably by conspiring to abuse him and hide the abuses. They accepted false evidence.
10. The dismissal of the PETITIONER’S previous case against RR by Judge Garcia, then by the Florida
State Courts, for the lack of a timely appeal or transcript from the hearings by Judge Ptomey violated the
US Const. Amend. V which guarantees the right to due process. Certainly, the judges of Florida’s Third
District Court of Appeal (3DCA) and Monroe County Civil Circuit Court (CC) -PETITIONER refers to
them as Group State Judges- have had illegally-undisclosed conflicts of interests -the PETITIONER asked
the FBI, NSA, DOJ to investigate them and whether the public funds of the RESPONDENTS have been
embezzled, and respectfully requests the Court to remind the FBI to finalize the examinations and notify
him- against him, and shared interests with each other and the other RESPONDENTS -or their managers if
RESPONDENTS are organizations-, such as joint investments, businesses, political affiliation, religion,
ethnic origin, country or State or area of birth or domicile, first spoken language, race, or other feature.
11. RESPONDENTS THE INVOLVED LEGISLATORS of the State of Florida (SFL), in their
private and official business capacities -PETITIONER refers to them as J. SFL Legislator 1-? or Group
SFL Legislators- who conspired to, and now technically, enslave many lawful citizens, including the
PETITIONER, and voted and passed laws which were against the US Constitution, for example, against
Page 8

the provision of the services of the Public Defender free of charge as the US Constitution requires and for
abusive limits on damages. They acted under color of state or local law and injured him unreasonably.
12 . RESPONDENTS Florida Auditor General (FAuG), Florida Department of Financial Services
(FDFS) and the persons in charge of the FAuG and FDFS at all the relevant times, J. Finance 1-?, in
their private and official business capacities, who monitor the activities of SDMC, CMC, Monroe
County, and their Administrators and Commissioners. They are liable for not providing proper auditing and
correcting of MC's LE, Judicial, and Social Services, and 3DCA's Judicial Services; they acted under color
of state or local law and injured him unreasonably.
13 . VIOLATIONS by the above RESPONDENTS: RESPONDENTS Groups RR, State Courts, and
MC -PETITIONER refers to them as Group FL Gov, which includes SDMC, MC, MC Social Services, KL
Mayor/Commissioner Office, MC Courts, 3DCA, FDFS, FauG, their supervisors, and their other involved
employees and agents- violated the PETITIONER'S rights under US Constitution Amendments, 42 USC §§
12131-12134 (Title II of the Americans with Disabilities Act (ADA) of 1990, as amended), 42 USCS §
2000e (Civil Rights Act of 1964, as amended), 42 USC § 1983, § 1985, and § 1988, 29 USC § 794
(Rehabilitation Act), and the other relevant laws; and all the laws’ implementing regulations.
14. RESPONDENTS in Group MC, including MC's Department of Social Services, violated the
PETITIONER’S rights under the laws in the above paragraph and his rights under Section 533 of the Public
Health Service Act (42 USC § 290cc-33).
15. The RESPONDENTS Group RR and Group State Courts (PETITIONER refers to them as
Group LE) violated his rights under the laws in the above two paragraphs and also his rights under Florida
Constitution, Article X, Section 11, and Monroe County (MC), FL, Code of Ordinances (CO), Ch. 26, Art.
IV., Sec. 26-98 (b), and under the legal, moral and ethical principle "Lex injusta non est lex."
16. Remedies are offered by 29 USC § 794a, 42 USC § 1985, 34 USC § 12601 -punishes misconduct of
law enforcement (civil enforcement)-, 18 USC §§241, 242 -punish misconduct of law enforcement
(criminal enforcement)-, 28 USC §§ 2201-02, the other relevant laws, and their implementing regulations.
Page 9

17 . RESPONDENTS Monroe County, Commissioner Office, the Sheriff Department of Monroe
County (SDMC), CMC, 3DCA, FAuG and FDFS are public entities under 42 USC § 12131(1), and thus,
are subject to Title II of the ADA, 42 USC §§ 12131-12134, and the implementing regulation, 28 CFR Part
35; they receive federal funding, thus are subject to Section 504 of the RA, 29 USC § 794, and the
implementing regulation, 28 CFR Part 42.
18. All previous RESPONDENTS acted under color of state or local law, conspired, abused, and injured
him; they did not to provide him adequate public services for reason of his disabilities, race, ethnicity,
color, national origin, religion, lack of income and adequate savings due to disabilities, or any combination
of illegal reasons, which injured him. PETITIONER respectfully asks the Court to request the Grand Juries
to indict all public officials who injured him.
19. RESPONDENTS Hampton Inn, Inc. (HI) with the local business at 102400 O/S Highway, Key
Largo, FL 33037, a franchise of Hilton Worldwide, Inc., and Hampton Inn's involved employees,
including individuals Paul Thomas, Chavone Wilson, and J. Agent -negligently trained or hired or
both by HI and its managers, individuals refered to as J. HI Managers 1-?- committed criminal
"swatting" by making a bogus call and lying to LEEs. All involved employees of Hampton Inn are liable in
their private and official business capacities. See another case against abusive employees of Hampton Inn,
who illegally filmed in private restrooms, at https://wnyt.com/wnvtimages/repositorv/cs/files/HamptonLawsuit.pdf. The PETITIONER respectfully asks the Court to order United States Corporation Company
(USCC), Hi’s Registered Agent, sop@cscglobal.com. to accept service of documents by email.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
1. US Const. Amend. I guarantees the freedom of speech.
2. US Const. Amend. VIII: Even if PETITIONER committed a crime, which PETITIONER did not, the US
Const. Amend. VIII prohibits one's cruel and unusual punishment.
3. US Const. Amend. IV guarantees "The right of the people to be secure in their persons," prohibits
Page 10

unreasonable seizures.
4. US Const. Amend. V guarantees the right to due process.
5. US Const. Amend. VI: "In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime shall have been committed [...];
to be confronted with the witnesses against him; to have compulsory process for obtaining witnesses in his
favor, and to have the Assistance of Counsel for his defense."
6. US Const. Amend. XIV, Sec. 1: "All persons born or naturalized in the United States and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein they reside. No State shall
make or enforce any law which shall abridge the privileges or immunities of citizens of the United States;
nor shall any State deprive any person of life, liberty, or property, without due process of law; nor deny to
any person within its jurisdiction the equal protection of the laws."
7 . US Const. Amend. IX protects rights not enumerated in the Constitution.
8 . IB USC §§ 1961—1968 - The Racketeer Influenced and Corrupt Organizations (RICO) Act provides for
extended criminal penalties and a civil cause of action for acts performed as part of an ongoing criminal
organization. The RICO Act focuses specifically on racketeering and allows the leaders of a
syndicate to be tried for the crimes they ordered https : I

. wikiwand. com/en/Dirtv_hands - others to do or assisted them in doing -

https://www.wikiwand.com/en/Enmund_v._Florida-.
9. 34 USC § 10228 and 42 USC § 2000d, et seq. and their implementing regulations, including 34 CFR
Part 104.4, prohibit both individual instances and patterns or practices of discrimination on ground of
disability, race, color, or national origin; and offer individual remedial relief for the victim and changes in
the policies and procedures of the agency to remedy violations.
10. Section 533 of the Public Health Service Act (42 USC § 290cc-33) prohibits discrimination based on
age, race, color, national origin, disability, sex (gender), or religion.
11. 42 USC § 12131 et seq. (Title II of the ADA): a public entity cannot "den[y] the benefits of [its]
services, programs, or activities" to a qualified individual with a disability, or subject any such individual to
discrimination. 42 USC § 12132. The DOJ has promulgated regulation 28 CFR Part 35 implementing Title
II, which states that a public entity may not (1) "[d]eny a qualified individual with a disability the
opportunity to participate in or benefit from [its] aid, benefit, or service," 28 CFR § 35.130(b)(l)(i); (2)
"[a]fford a qualified individual with a disability an opportunity to participate in or benefit from [its] aid,
benefit, or service that is not equal to that afforded others," id. § 35.130(b)(l)(ii). PETITIONER may file a
private lawsuit for violations of this statute to seek individual relief for himself, in addition to changes in
the policies and procedures of the law enforcement agency.
Page 11

12. 29 USC § 794 (Rehabilitation Act) and the implementing regulations, including 28 CFR Part 42,
prohibit discrimination by State and local law enforcement agencies that receive financial assistance from
the USA's DOJ.
13. 34 USC § 12601, 18 USC §§241, 242 punish misconduct of law enforcement.
14. 42 U.S.C. §1983 (Reconstruction Civil Rights Act): "Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State or Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United States or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities secured by the Constitution and laws, shall be liable to
the party injured in an action at law, suit in equity, or other proper proceedings for redress." The remedies
allowed under a constitutional § 1983 claim include compensatory and punitive damages, an injunction,
and declaratory relief. Smith v. Wade, 461 U.S. 30, 51 (1983).
15 . 42 USC § 1985: "Essential to the claim, however, is that the conspiracy be motivated by racial
animus." Word of FaithWorld Outreach Ctr. Church v. Sawyer, 90 F.3d 118, 124 (5th Cir. 1996). The
conspiracy involved all RESPONDENTS -SPATARU asked the FBI office in Miami, miami@ibi.gov. to
investigate and respectfully requests the Court to remind the FBI to finalize the interrogations and notify
him-; PETITIONER notifies the Court that PETITIONER was born in Romania (current member of EU
and NATO), outside the USA; thus, PETITIONER is part of a different racial group from the
RESPONDENTS, which has made him an easier target of corruption or malice.
16. State of Florida's Constitution, Article X, Section 11 states, "The title to lands under navigable waters,
within the boundaries of the State, which have not been alienated, including beaches below mean high
water lines [MHWL], is held by the State, by virtue of its sovereignty, in trust for all the people. Sale of
such lands may be authorized by law, but only when in the public interest. Private use of portions of such
lands may be authorized by law, but only when not contrary to the public interest." Even though
PETITIONER did not touch any Hi’s property because PETITIONER swam below the MHWL, and
HI does not own any water below the MHWL, PETITIONER was arrested, detained, and convicted
under Fla. Stat. 810.08.2b (2015) for trespassing on Hi’s property, which was wrong. Indeed, the
Sheriff did not have reasonable cause to arrest and detain him; and Judge Ptomey did not have
reasonable cause to convict him.
17 . Monroe County (MC), FL, Code of Ordinances (CO), Ch. 26, Art. IV.- DIVING AND
SNORKELING PROHIBITED DURING LOBSTER MINI-SEASON, Sec. 26-98 - Diving and snorkeling
prohibited (Sec. 26-98) states "(a) It is a public nuisance and is unlawful for any person to dive or snorkel
in any manmade water body or marina, or within 300 feet of an improved residential or commercial
shoreline beginning three days prior to the opening of and during the entirety of the lobster mini-season
Page 12

and for the first five days of commercial lobster season1, (b) Nothing in this article shall prohibit diving
incidental to vessel or dock maintenance, provided the diver performing the maintenance lawfully displays
a diver down flag and otherwise complies with the requirements of FS ch. 327, or diving and snorkeling
in front of his or her property to the center line of the canal or 100 feet of open water [which was
PETITIONER’S case, thus DK -negligently hired and trained by RR who was in charge of SDMCarrested him illegally and abusively; his boat had been anchored lawfully in Tarpon Basin (TB) since
2013, and RR's employees should have known him and his lawful boating and swimming.]."
https://library.municode.com/f1/monroe_county/codes/code_of_ordinances?
node!d=CH26WA ARTIVDISNPRDULOMIAS S26-98DISNPR.
18. CO Sec. 26-96. - Intent and purpose: "The intent and purpose of this article is to protect and promote
public health, safety and welfare and abate the destruction of property, deleterious environmental effects,
and criminal trespass that results from the close proximity of divers to public and private property, as well
as from the interactions and explorations by divers of docks, piers, and bulkheads in search of spiny lobster
during the lobster mini-season and commercial lobster season. Such activities constitute a public nuisance.
This article shall be effective in both incorporated and unincorporated Monroe County to the extent that no
conflict exist with a municipal ordinance as provided in Art. VIII § 1 (f) of the Florida Constitution." ibid.
19. CO Sec. 26-99 - "Penalties" states, "Any person cited for a violation of this article shall be deemed
charged with a noncriminal infraction [(The penalty for a civil traffic infraction is usually a line and
costs but not arrest.)], shall be cited for such an infraction, and shall be cited to appear before the county
court. Citations shall be issued pursuant to FS § 327.74, (uniform boating citations [but not for
trespassing]) by any law enforcement agency authorized to issue such citations. The civil penalty for any
such infraction is $50.00 [...] not to exceed $500.00 [...] The county court, after a hearing [, but not arrest
-see below why the arrest was not necessary-,] shall make a determination as to whether an infraction has
been committed. [...] infraction must be proven beyond a reasonable doubt."
2 0 . Fla. Stat. § 394.459 -Baker Act-; the RESPONDENTS IN GROUP RR used unacceptable force,
including handcuffs, on PETITIONER, a patient suffering from and having treatment for depression and
pain.
21. The UN’s Universal Declaration of Human Rights (UDHR) forms part of customary international law
and is a powerful tool in applying diplomatic and moral pressure to governments that violate any of its
1. “Commercial lobster season means the period of time designated for harvesting of lobster,
currently from August 6 through March 31 of the following year, authorized by the Marine Fisheries
Department of the Florida Fish and Wildlife Conservation Commission [(FWC)] pursuant to Section 68B24.005, Florida Administrative Code, as amended from time to time.”
http://mvfwc.com/fishing/saltwater/commerciai/spinv-lobster/
Page 13

articles. "In Filartiga, the Court stressed the importance of the UDHR and the Declaration on the Protection
of All Persons from Being Subjected to Torture. [...] UN declarations [...] become recognized as laying
down rules binding upon the States. Filartiga v. Pena-Irala, 630 F.2d 876, 883 (2d Cir. 1980). The Court
further stated that 'the Universal Declaration has become, in toto, a part of binding, customary international
law."' - UN Documents in US Case Law, by Paul Hellyer, 2007, Marshall-Wythe Law Library, College of
William and Mary, Williamsburg, Virginia, http://scholarship.law.wrn.edu/cgi/viewcontent.cgi?
article^! 013&context=libpubs. UDHR requires all to "act towards one another in a spirit of brotherhood.",
"Everyone has the right to life, liberty and security of person.", "No one shall be subjected to torture or to
cruel, inhuman or degrading treatment or punishment.", "the right to an effective remedy by the competent
national tribunals," "independent and impartial tribunal," "No one shall be arbitrarily deprived of his
property." -Universal Declaration of Human Rights, GA Res 217A (III), UN GAOR, 3rd session, 183 plen
mtg, UN Doc A/8.10 (December 10, 1948). Article 25 of UDHR states, “Everyone has the right to a
standard of living adequate for the health and well-being of himself and of his family, including food,
clothing, housing, and medical care and necessary social services, and the right to security in the event of
unemployment, sickness, disability, widowhood, old age or other lack of livelihood in circumstances
beyond his control.“

STATEMENT OF THE CASE
1. Before PETITIONER'S abusive, injuring arrest and detention starting on 8/11/15 in Key Largo, FL,
USA, since June 2013 when a van has injured and disabled him because of the lack of the "TWO-WAY
BIKE ROUTE" traffic warning sign (TW BR TWS or TWRS, the Officials of the State of Florida (FL) and
Monroe County (MC), FL, have acted under color of state or local law, and have failed to provide adequate
housing, legal care, and health care for PETITIONER'S recovery. After the van hit him in 2013, the
PETITIONER has commented in public about suing FL Department of Transportation and others for
abuses; thus, the PETITIONER antagonized the negligent officials in Florida, and their supporters and
beneficiaries, including Group Gov; they illegally retaliated by conspiring against him, abusing and
injuring him; Group Gov illicitly used their agents at HI to provide LE a false reason to detain him.
2 . On 08/11/2015, the employees of Hampton Inn, Paul Thomas, Chavone Wilson, and J. Agent

Page 14

-RESPONDENTS in Group HI-, lied to LEEs that PETITIONER caused problems to any guests and made
a bogus, criminal, swatting call to LEEs. Swatting is a form of abuse in which someone reports a false
emergency to get authorities to descend on an address in maximum force. A case is described by
https://www.msn.com/en-us/news/crime/california-man-sentenced-to-20years-in-fatal-swattina/ar-BBVnQ19#paae=2: "A California man [, Tyler R. Barriss,] was
sentenced [-see United States v. Barriss, 6:18-cr-l 0065,
https://www.courtlistener.com/docket/6872417/united-states-v-barriss-] to
20 years in prison for making bogus emergency calls to authorities across the US, including one that led
police to fatally shoot a Kansas man [, Finch,]." Finch’s family sued the city; see Finch et al. v. Wichita,
Kansas, City of, et al, 6:2018cv01018, US District Court for the District of Kansas,
https://dockets.iustia.com/docket/kansas/ksdce/6:2Q18cv01Q18/119934. Due
to the PETITIONER'S comments regarding the organized crime (OrC), PETITIONER has become its
target, and they use all possible methods to annihilate their targets, including him; OrC’s agents have
harassed and tried to frame him since at least 9/11/2001 when he commented that officials illegally created
and allowed the terrorists to succeed in hitting two WTC buildings (lawlessly to make people focus on
other issues than missing trillions from the public budgets -especially defense ones-, profit from the
decrease of many stock market prices and increase in terrorist scanning equipment prices, receive insurance
for the three controlledly-demolished WTC buildings, take over highly-profitable oil and opium-producing
poppy fields abroad, all for their unlawful enrichment and with total disregard for the evil consequences,
for which they must be sued ASAP; "The war against a foreign country only happens when the [evil-]
moneyed classes think they are going to profit from it." George Orwell). Indeed, HI and all involved
employees of Hampton Inn were corrupted by, or part of OrC and are liable in their private and official
business capacities for PETITIONER'S injuries caused by the RESPONDENTS IN GROUPS RR and
STATE COURTS. PETITIONER respectfully asks the Court to investigate -and order the FBI to
investigate, too, and report ASAP- why Group HI lied and why LEEs -with deliberate indifference to the
Page 15

PETITIONER'S health and the public interest- did not investigate properly to see that his arrest would be
illegal; to discover, punish, and make all the conspirators -including who ordered for him to be injured and
silenced- to compensate him and stop his and others' harassment and attacks.
3 . Beyond a reasonable doubt, RESPONDENTS were part or instruments of a conspiracy group that has
profiteered from the corruption of the public services and works, such as constructing the bike route in Key
Largo without the required traffic warning signs, which caused an accident that badly injured
PETITIONER. He respectfully asks the Court to investigate whether the funds for the required traffic
warning signs, LE car a/c, detention conditions, LE training, public recovery housing and therapies were
misappropriated, prosecute the embezzlers, and implement adequate, periodic controls of the public
budgets; and to make sure that the investigators are not part of the organized criminal conspiracy2, also by
analyzing the solving rates of the investigators; historically, most unsolved crimes have been committed by
the investigators or their families or friends. The PETITIONER offers to volunteer for such activities. Our
communities must ensure that all companies, organizations, government departments, products, and
services are and will be safe for every person in our communities. Indeed, RESPONDENTS injured him to
continue profiteering from their corruption; they used their power and the illegally discriminating
prejudices of others to injure and silence him. There will be no abuses and "accidents" in the future if the
Court.punishes the abusers severely.
4 . Moreover, the heads of the organized crime (OrC) clans ordered PETITIONER’S elimination, at least
mental, due to his comments, even though constructive, regarding the failed USA's war on drugs. Indeed,
the war on drugs became a war of those who control or manipulate the Law-Enforcement Chiefs, such as
those in S. FL, to eliminate the drug traffickers who are not in their 'importing'/trafficking network which is
so effective that one can buy from the “accepted distributors” an illegal drug like THC, cocaine, crack,
2 "the FBI agent ended up going down also for taking bribes and for the 1973 murder of a Bulger target in
Florida. He will die in prison." - https://\vww.investigationdiscoverv.com/crimefeed/crime-liistorv/whitevbulger-S-pop-cLiiture-takes-on-boston-irish-nioh-lcgend. "Around June 1984, the Key West Police
Department located in Monroe County, Florida, was declared a criminal enterprise under the federal RICO
statutes [... ] running a protection racket for illegal cocaine smugglers."
https://www.wikiwand.coni/en/Racketecr_Infiuenced_and_Corrupt_Organizations_Act.
Page 16

heroin or flakka in 15-45' as simply as one can buy a Domino's pizza
-https : //www. aooale. com/search-, and which is hugely profitable as the general criminalization
raised the price of, for example, cocaine at least 75 times from ~$2 per gram - the highest price in
Colombia- to $150 in the United States, thus, a transport that costs $1 million will bring $75 million -but
also many health and social issues-. Truly, our communities must study and adopt from the success of the
clinical decriminalization in countries such as Portugal and Switzerland (which allocate public funding -$2
per gram of cocaine, not $150!- for supervised, civilized administration of safe quality drugs and thus
eliminate most of the generated crimes, violence, and diseases — https://www.cato.org/publications/whitepaper/drug-decriminalization-portugal-lessons-creating-fair-successful-drug-policiesT Indeed, most illegal
traders of drugs care only about their profits and not about the real well-being of their clients; indeed, they
do not tell clients about the adverse effects of their drugs and do not ask about clients' illnesses to make
sure that they would not be made worse by the drugs, as legal doctors do. The PETITIONER always
advises against the consumption of any drugs from illegal traders. Furthermore, the PETITIONER
recommends that all persons boycott all unethical sellers, regardless of what they sell. Indeed, due to his
comments, even though constructive, regarding the organized crime, PETITIONER has become OrC's
target, and they use all possible methods to annihilate their targets, including swatting, corrupting officials,
and aiding embezzlers; also see an article by a former manager of a gang-stalking "syndicate,"
http: / /www . truedemocracv. net /hi 35/14 . html. also in the file at
https://ldrv.ms/b/s!AoOWvvOOcbRYa6tTYDuvhSulTdVwxO?e=4dT4aT.
5 . "[Sociopaths...] differ from normal people in that they lack the ability to relate emotionally to others.
As a consequence, they have a terrifying ability to treat others not as human beings but as things to be
exploited, tortured or killed, as they see fit," -http: / /www. pathocracy.net- and indeed, the
RESPONDENTS tortured him. "[Sociopaths...] are not technically insane. They don't have a psychosis,
like schizophrenia. They are experts in appearing normal," "the question is how to stop the powerful from
doing as much damage as they can to us," "While you try to ’understand' [and help] the [sociopaths...],
Page 17

they are secretly calculating how best to cause you the most suffering," "Countries ruled by [sociopaths...]
become corrupt and brutish police states constantly at war with created and imaginary enemies. The
population becomes paranoid, neurotic, and ultimately secondary [sociopaths and] psychopaths. In a
[sociopathic ...] culture, everyone must adopt a ruthless attitude as a survival strategy", "The [sociopath ...]
enjoys making others suffer. Just as normal humans enjoy seeing other people happy, or doing things that
make other people smile, the [sociopath ...] enjoys the exact opposite", "Real power is unelected.
Politicians change, but the power structure does not. The Network [... ] operates behind the scenes, for its
own benefit, without ever consulting those who are affected by its decisions. The Network is composed of
individuals who prefer anonymity. They are 'satisfied to possess the reality rather than the appearance of
power.' This approach of secretly exercising power is common throughout history because it protects the
conspirators from the consequences of their actions. [... ] A primary tactic for directing public opinion and
government policy is to place willing servants in leadership positions of trusted institutions (media,
universities, government [, including law enforcement], foundations, etc.). If there is ever a major backlash
against a given policy, the servant can be replaced", "Historically, those who establish sophisticated
systems of domination are not only highly intelligent; they are supremely deceptive and ruthless. They
completely ignore the ethical barriers that govern a normal human being’s behavior. They do not believe
that the moral and legislative laws, which others are expected to abide by, apply to them." id.
PETITIONER respectfully asks the Court to find the others in the conspiracy network, including the
organizers, and order them to compensate PETITIONER and stop the abuses. "The truth is the only thing
worth working towards", "True conscience raises us above the example of [sick-]animal behaviour set by
the pathocrats." id.
6. Moreover, the heads of the organized crime (OrC) clans ordered PETITIONER'S elimination, at least
mental, due to his comments, even though constructive, regarding the "big" international, criminal bankers
(BICB) clans; BICBs -also are organized crime (OrC)- financed in 1914 the German Kaiser and his
Austrian and Hungarian allies to attack Romanians and other ethnic groups and nationalities, and after the

Page 18

Romanian national treasure was sent to and reached the allies in Moscow's Kremlin to be guarded there by
the allied Russian Government, BICBs also financed the Moscow's killer "communists" -lead by Lenin and
Trotsky-, who took over Russia by assassinations and terror, and have never returned most of the Romanian
national treasure -including almost 100 tonnes of priceless, collectible, XlX-century gold coins from every
safety box from every bank, whose owners (millions; many "disappeared" later, during the "communist"
occupation of Romania, along with their proofs of ownership) naively agreed to be shipped to Kremlin
instead of Canada or the Arctic-; the total value lost today would be more than 2 trillion dollars (around
$100,000 for every Romanian citizen alive). Romania had been a significant producer of gold, oil,
gasoline, timber, cereals, and other products, and related innovations and inventions https://www.wikiwand.com/en/List_of_Romanian_inventors_and_discoverers-, but lawlessly BICBs
caused significant losses and damages to Romania and its citizens -more than 335,000 soldiers died during
WWI, https://www.wikiwand.com/en/World_War_I_casualties-, and much of its national treasure was
"confiscated" in 1917 by the new rulers of Kremlin, Russia, illicitly financed by BICBs. Truly, BICBs do
not care about any country, including the USA, but only about increasing their wealth; indeed, 30 trillion
dollars are in tax heavens today, and a big part is owned or "controlled" by BICBs. They also financed
Stalin, Hitler, and other demented and terrorist despots; BICBs have used many times the resources of the
"Wall-Street" in New York, USA, too. PETITIONER respectfully asks the Court to initiate legislation to
make it illegal and punishable by confiscation of all wealth, permanent sterilization, and life in prison for
the USA’s and all other countries' citizens and institutions to finance abusive, predatory wars and despots.
In 1940 after a secret treaty, Stalin invaded Romania and took a part in NE -which made more than one
million persons, including PETITIONER'S grandparents, leave their homes and other properties; many who
did not leave were sent to Stalin's forced labor camps-, while Hitler's Hungary took a part in NW -which
made more than 150,000 persons leave (https://www.wikiwand.com/en/Second_Vienna_Award); many
who did not leave were sent to Hitler's forced labor camps-. Even after Romania allied with France, the
UK, the USA, and their allies, including the Soviet Union, a unit of Stalin's army stole again in 1947 most

Page 19

of the new Romanian national treasure, including more than 200 tonnes of gold bullions. Indeed, BICBs
caused significant damages and losses to Romania and many other countries. With the help of Romania,
too, Poland shipped its valuables to Canada in 1939; thus, they were safe and were recovered. France did it
also. Why did Romania's officials in 1916-1946 not send all the Romanian valuables to Canada, too? Let us
assist Romania today -which is still under nefarious BICBs’ influence; thus the politicians in Romania who
talk about its stolen treasures are eliminated unfairly by OrC; PETITIONER is harassed, too, for speaking
and writing about it-, to sue BICBs, their descendants, Russia's officials from 1916 until today and their
descendants, to recover the Romanian national treasures stolen by them. If the BICBs clans keep control of
their vast, illegally-gained wealth, they again will use it to rob and affect entire countries and will be a
danger to all the planet, as they most probably still are sociopaths. By not timely quarantining all
international travelers from Wuhan, China, their corrupted instruments allowed Covid to spread in all
countries to disable or kill the truth activists. Let us sue the officials of Romania involved in the thefts of
1916-1946-2020 and their descendants for their il legal wealth and its use.
7. On 08/11/2015, at around 4:30 PM, PETITIONER was a public invitee of the State of Florida to swim
with or without a snorkel in the Tarpon Basin (TB) which is public water in Key Largo (KL), adjacent to
the Government Center, 102050 Overseas Highway, Key Largo, Florida, and Hampton Inn (HI), 102400
Overseas Highway, Key Largo, Florida, and he was lawfully at the subject location, swimming lawfully
with a snorkel near his property, an anchored sailboat, to 100 feet of open water.
8. The Monroe County, FL, Sheriffs Deputies (MCSDs) acted under color of state or local law and
abusively decided to consider PETITIONER'S lawful swimming which was therapeutic, as trespassing and
committed wrong, false and injuring arrest and detention for six nights starting on 8/11/15 in Key Largo
(KL), FL, USA. They did not provide proper investigations, conditions, and services, which injured him
severely and permanently. They had no probable cause and used cruel and unreasonable force and
punishment. MCSDs have severely reduced PETITIONER'S integrated reasoning skills -see Appendix with
the GMAT report-, which has not served any public interest. Thus, they have destroyed directly at least

Page 20

20% -proximately, at least 50%- of PETITIONER'S intellectual skills; and have caused him PTSD; and
have caused him new and worsened old brain injuries which manifest as recurring headaches, insomnia,
nausea, poor balance, anxiety, depression, attention deficit, memory deficit, and other physical or
psychological symptoms. Their abuses have worsened PETITIONER'S other previous health issues -right
elbow and shoulder pain; back and neck pain, and other physical conditions-. PETITIONER still suffer
from the severe medical problems caused by their brutality.
9. RESPONDENT KERN came to the PETITIONER'S anchored boat with an FWC boat and -with
deliberate indifference to his health and to the public interest- arrested him wrongly and abusively for
trespassing, without prior warning of any violation, without probable cause, and without a warrant as US
Constitution Amend. IV -Search and Seizure- requires; indeed, he deceived him into entering the FWC's
boat from his live-aboard sailboat anchored in Tarpon Basin; then, threateningly, he shouted to him to "get
out of' Monroe County, which PETITIONER has interpreted as an order to avoid further abuses, and
which was an aggravated assault. PETITIONER wanted to move from MC but was not able until 2019 due
in part to the health issues that the RESPONDENTS worsened or caused him. Due to the abuses,
PETITIONER still is afraid to return or visit MC, and especially Marathon, MC, where RESPONDENT
DK works now. PETITIONER respectfully asks the Court to order all LEEs to wear video and sound
recording cameras and record all their actions. After a new accident on 11/11/2020 in Miami, FL, the
PETITIONER moved outside the USA in 2020 to avoid more OrC abuses and hate crimes. He still is
searching for a secure mail box; thus, he still uses the mailing address at CILK in FL even though CILK
has not answered his respectful requests emailed in February 2021 -it's probable that hackers deleted his
emails at CILK; PETITIONER respectfully asks the Court to order the FBI to investigate. Regarding his
accident on 11/11/2020, a mechanic at Sears Auto Center, after changing a back tire, let the back of
SPATARU's car, which weighs more than 5,000 pounds, fall on him while he was securing the spare tire,
which injured him more (The bike rack attached to the back of his car made it impossible for him to stand
with his head right under the rear hatch door, which hopefully would save his life). The mechanic did not

Page 21

make sure that SPATARU, a person with disabilities -which affected his assessment of the risks at a car
shop such as Sears Auto Center-, was far enough from the back of the car not to get injured when the
mechanic released the valve of the hydraulic carjack which lowered completely in a fraction of a second.
If the carjack that the mechanic used had lowered slowly -he should have checked it; was he drugged?-,
SPATARU's new injuries would not have happened. SPATARU asked the FBI office in Miami,
miami@fbi.gov. to investigate Sears and respectfully requests the Court to remind the FBJ to finalize the
interrogations and notify him.
10. RESPONDENT KERN illegally arrested and caused severe hyperthermia to PETITIONER. Indeed,
RESPONDENT KERN -even with instructions from his superiors at MCSD- had no right to arrest
PETITIONER for his lawful, therapeutic swimming and cause him injuring hyperthermia. MCSD must
work for the citizens, not the organized crime (OrC) which targeted PETITIONER. During PETITIONER'S
detention from around 7 PM to around 7:30 PM in an SDMC's car by RESPONDENT KERN, the
temperature inside the separate, isolated detention area (SDA) -that had no functioning a/c and no open
windows- of the car exceeded 104 degrees F, the limit when the human thermoregulatory mechanism starts
to be overwhelmed. PETITIONER was detained inside even though PETITIONER complained about the
unendurable heat and requested cooling; moreover, DK did not even open the windows in the back SDA
which was separated from the front a/c by a thick wall that insulated it.
11. Indeed, the temperature in KL at around 7 PM was above 85 F -see National Climatic Data Center
(NCDC) 's National Environmental Satellite, Data, and Information Service,
https://www.ncdc.noaa.gOv/cdo-web/datasets/LCD/stations/WBAN:12896/detail; also, see
https://ldrv.ms/b/s!AoQWyvOQcbRYg6wTzTCkfqF7ZKKF6w?e=DysqiO-, and the car was parked in
sunlight; therefore, the temperature inside its SDA was more than 119 F -see
https://www.compustar.com/blog/how-hot-can-a-car-get/-, and its inside heat index was above 190 -see
https://goodcalculators.com/heat-index-calculator-. "Basically the car becomes a greenhouse. At 70 degrees
on a sunny day, after a half hour, the temperature inside a car is 104 degrees. After an hour, it can reach 113

Page 22

degrees." https://www.readthehook.com/85587/news-spring-tragedy-baby-dies-jag-school-parking-Jot. by
Jan Null, adjunct professor at San Francisco State University, https://ggweather.com/expert.htm,
jnull@ggweather.com, ph: (650) 712-1876. "When temperatures outside range from 80 degrees to 100
degrees, the temperature inside a car parked in direct sunlight can quickly climb to between 130 to 172."
Centers for Disease Control and Prevention, https://abcnews.go.com/US/story?id=92943. Also, see
https://www.noheatstroke.org/hot_car_ani_90.gif. The temperature of the seats "got even hotter."
https://www.livescience.com/62651 -how-hot-cars-get.html.
12. The body temperature rises due to anger - Anger - how it affects people,
https://www.betterhealth.vic.gov.au/health/healthyliving/anger-how-it-affects-people -, which the
RESPONDENT knew and used to torture the PETITIONER in the overheated SDA, even more. Cortisol,
which is the stress hormone, "tends to rise when the temperatures begin to soar." Does This Hot Weather
Make You Angry?, https://www.ndtv.com/food/does-this-hot-weather-make-you-angry-the-reason-willsurprise-you-1844206, thus, the PETITIONER was injured even more. Each of his breaths "would
introduce humidity into the vehicle. They are exhaling humidity into the air,' Selover said. 'When there is
more humidity in the air, a person can't cool down by sweating because sweat won't evaporate as quickly,"'
id, which made the PETITIONER suffer in the isolated SDA even more.
13 . In addition, PETITIONER was not adequately hydrated, which worsened the effects of hyperthermia;
PETITIONER respectfully asks the Court to order the RESPONDENTS IN GROUP RR to ensure that an
accused person is not dehydrated during detention ("risk of hyperthermia include: Being dehydrated." June
27, 2012, Hyperthermia: too hot for your health | National Institutes of Health (NIH,
https://www.nih.aov/news-events/news-releases/hyperthermia-too-hotvour-health-lT
14 . "Heatstroke is clinically defined as when a person's temperature exceeds 104 degrees F and their
thermoregulatory mechanism is overwhelmed. Symptoms include: dizziness, disorientation, agitation,
confusion, sluggishness, seizure, hot dry skin that is flushed but not sweaty, loss of consciousness, rapid
Page 23

heart beat, hallucinations. When a core body temperature of 107 degrees F or greater is reached then cells
are damaged and internal organs begin to shut down. This cascade of events can rapidly lead to death."
https://www.noheatstroke.org/medical.htm. "At 110 to Ill, your cells begin to break down. Proteins distort.
Liver cells die; the tiny tubes in your kidneys are grilled. The large Purkinje neurons in your cerebellum
vanish. Your muscle tissues disintegrate. The sheaths of your blood vessels begin to leak, causing
hemorrhaging throughout your body, including your lungs and heart. There is now blood in your vomit."
https://www.outsideonline.com/2398IQ5/heat-stroke-signs-svmptoms - also, see The Heat Shock
Response: Life on the Verge of Death — ScienceDirect,
https://www.sciencedirect.com/science/article/pii/S1097276510QQ7823.
15. Heatstroke "may lead to long-term brain damage. [...] you might end up [...] clumsy [, which
happened to the PETITIONER] or slur your speech [, which happened to the PETITIONER, too]. Case
reports of long-lasting personality changes (similar to those caused by traumatic brain injury) also exist
[... ] Drugs that have anti-cholinergic properties (including some of those used to treat schizophrenia,
depression [-which the PETITIONER was taking, but, criminally, the RESPONDENTS did not care, or
were not trained, to ask him-], and Parkinson's disease) inhibit perspiration and otherwise increase the risk
of overheating." Can a heat wave make you insane?, https://slate.com/news-and-politics/2011/08/can-aheat-wave-make-you-insane.html.
16. Indeed, it is illegal in Florida to leave children, pets, and other helpless persons in a car; a child dies in
less than 1 O' from hyperthermia. RESPONDENT DK did not open the a/c or the windows in the back of his
car, which was separated from the front by a thick divider; thus, PETITIONER overheated.
RESPONDENT DK should have used another car with an air-conditioner that worked. PETITIONER'S
body, including his brain, overheated and he felt almost suffocated. The hyperthermia has caused him new,
and worsened old, brain and mental injuries that manifest as recurring headaches and other mental
problems such as insomnia, nausea, focus issues, memory weakness, attention deficit, PTSD, anxiety,
depression, and other medical/physical/psychological conditions. They impair drastically and permanently

Page 24

his intellectual activities. Indeed, RESPONDENT DK knew or should have known about hyperthermia as a
LE professional. The lack of proper air conditioning in a heated car is evil torture and illegal, against the
US Const. Amend. VIII which prohibits cruel and unusual punishment.
17. In addition, RESPONDENT DK did not let him take his credit card to pay the bail to be released; and
DK did not let him take his phone to have his friends' numbers.
18 . When John Jail 1 joked about the PETITIONER’S attacking officers with a book,
PETITIONER thought PETITIONER might joke, too, -and PETITIONER was right that no book
there had a hardcover to become really dangerous-. PETITIONER did not plan to attack anyone,
and PETITIONER did not mean to disrespect anyone when PETITIONER suggested that officers
should study more, too, to be more professional, and even become licensed attorneys. PETITIONER
respectfully asks the Court to implement compulsory annual continuing education courses and tests,
including about logic and health issues caused by improper conditions, with a minimum passing
grade of 99/100, for all LEEs in all USA and even all countries of the planet.
19. Illegally, the Officers who arrested him did not allow him to take his phone and credit card to pay the
bond, and PETITIONER had not memorized any phone numbers of friends to call from jail for assistance.
The bail bond agents could not help him to pay the bond, and the jail did not allow him to access Internet
Banking to pay the bond. The attorney firms PETITIONER found in Yellow Pages did not accept collect
calls from him. Therefore, PETITIONER had to wait six days in jail until a friend found out and paid the
bond. PETITIONER respectfully asks the Court to order RR to provide at least two ways for inmates to
access their credit cards (through phone or internet), so they can pay the bond, to make sure during the
arrest that the accused ones know friends' phone numbers and take a credit card with them so they can pay
the bond or call friends to pay, and to allow both the Police Officers and the Public Defenders to access
Internet Banking on behalf of the inmates to help them pay the bond or email inmates' friends.
20. Moreover, John Jail I, RR's Deputy who checked him in the jail in KL, convinced him not to ask for a
public defender, which was against his interest. PETITIONER respectfully asks the Court to order LEEs,

Page 25

including RR, to give each detainee written advice for the assistance by a public defender (Pu.De.), which
explains the complexity of the legal system, the independence of the Pu.De., and the remedies if the Pu.De.
is incompetent.
21. John Jail 2 thought that PETITIONER attacked a LEE because PETITIONER was detained in the
solitary confinement cell -even though PETITIONER requested it himself to John Jail 1 to avoid the noisy
common dorm cell to be able to read-, thus he did not allow him to make enough phone calls to ask for
help, shouted, and almost attacked him; after a while, his colleague probably told him about the
PETITIONER'S request for a quiet area, thus he did not hit him at all, but he was still suspecting him of
something PETITIONER did not commit. PETITIONER respectfully asks the Court to request the
legislators in all the USA -and even in all the othercountries- again to ban corporal punishment; and to
request RR to stop all abuses and violence.
22. Moreover, PETITIONER was kept in jail and its hospital without medical treatment and therapy, with
deliberate indifference to his health and to the public interest; PETITIONER was not given his prescribed
drugs, which caused him more anxiety and depression.
23. In addition, with deliberate indifference to his health and to the public interest, the food in jail did not
provide enough nutrients, and PETITIONER had no money to purchase food from the expensive store of
the jail. PETITIONER respectfully asks the Court to order RR and other all jails to provide nutritional
supplements to all inmates because, without them, people will get weaker and sicker and even die.
Nutritional supplements cost under 5 cents per day per person. Otherwise, they will be released with
expensive, incurable, and even unmanageable mental and non-mental health problems that will cost all of
us much more tax money and trouble.
24. Furthermore, due to the detention prolonged by Group State Courts, PETITIONER could not go to take
the Graduate Management Admission Test (GMAT) as planned, for which PETITIONER had studied six
months, 12-15 hours a day, almost every day; moreover, PETITIONER could not go to take care of his
anchored boat which needed checks and pumping of the bilge water; all caused him more anxiety and

Page 26

depression. His performance at the integrated reasoning section of the GMAT decreased -see Appendix F41 pp, 77.4%, from immediately above the bottom 53% in 2014 (which PETITIONER attained even
though, abusively, PETITIONER was not allowed to wear a hat to protect his head from the blowing cold
air from the A/C above) to only immediately above the bottom 12% (even though PETITIONER was
allowed to wear two hats at the test and had studied for almost nine months, 12-15 hours a day, almost
every day) when PETITIONER took it ten weeks after the false arrest, due 90% to the brain health issues
that the RESPONDENTS IN GROUP RR caused or worsened; thus, the graduate schools did not accept
him in their Ph.D. programs; and, due at least 90% proximately to Group RR and the other
RESPONDENTS, PETITIONER is still not able properly to study to retake the GMAT and get a better
grade or take LSAT or other tests. Moreover, Group LE further destabilized his life by removing him from
his other activities and his home and causing a loss of his reputation. The RESPONDENTS have not served
the public interest but acted against it.
25 . RESPONDENTS' wrong, abusive acts, conditions, and omissions caused him new, and aggravated
old, injuries. PETITIONER SPATARU can prove his physical, mental, and emotional pain and suffering
caused by the illegal, cruel and unreasonable actions of the RESPONDENTS; indeed, PETITIONER
SPATARU visited and complained to the jail doctor about his headaches and his blood being visible in his
skin pores; and to Dr. Sandoval and other doctors, for example, at Jackson Hospital in Miami, about his
headaches and other continuing issues. His relevant records below are at https : //ldrv.ms/u/s
AoOWvvQOcbRYaawfGCvtQ5b7W9TMRQ?e=epBhGE. His medical records are included at
httos://ldrv.ms/f/s!AoQWvvOQcbRYaoNYBPHE9QaOkl2vhA and
https://ldrv.ms/f/s!AoOWvvOOcbRYkHLMH8QlZSAlfXzo.
26. At all times material, RESPONDENT RR had a duty to design reasonably safe procedures to hire, train,
test, supervise and otherwise control the deputies not to injure and wrongly arrest the PETITIONER; to
design reasonably safe transportation and detention procedures and conditions, and to maintain and keep
them in a reasonably safe condition; reasonably to design and conduct checks of employees and conditions;
Page 27

and to warn of perils.
27. RR breached its duty of care starting on 08/11/2015, at around 7 PM, when his deputies arrested the
PETITIONER wrongly and deceitfully from his boat without a warrant; then transported him harmfully
~30 minutes; then detained him in the Plantation Key jail overnight without medication, without a proper
mattress for his back pain and without a proper pillow for his neck pain; then transported him harmfully
~T20 minutes at ~2 AM; and then detained him in the Key West jail's "hospital" for at least five more
nights without medication, without a proper mattress for his back pain, without a proper pillow for his neck
pain and without a warming sweater for the cold inside temperature. His requests for them were not
answered; therefore, his body, including his mind, was permanently affected. PETITIONER respectfully
asks the Court to order the medical requests system to be overhauled, redesigned because the current
system does not work, impairs people, and even kills. PETITIONER respectfully asks the Court to order
that the back of the police cars provide proper air conditioning and RR’s deputies handcuff the detainees
loosely enough and with the arms in the front, not the back of their bodies, during transportation to avoid
bodily injuries.
28. The RESPONDENTS in Group RR knew, or in the exercise of reasonable care should have known, that
the PETITIONER was not trespassing and should not have been arrested, detained, transported, and
convicted.
29. RESPONDENT Judge Ptomey said "unofficially" that he did not know that PETITIONER was
swimming for therapy; however, he should have inquired why PETITIONER really was swimming, as it
was part of his duties. The deputies who arrested him abusively and injured him knew or should have
known too. PETITIONER told RESPONDENT Deputy Cody Kern after he handcuffed him that he was
making a mistake, but RESPONDENT Deputy Madnick (DM), his superior, insisted on arresting him. All
deputies should have known that PETITIONER was swimming for therapy, because PETITIONER told a
deputy before about his therapy, and PETITIONER’S file at MCSD should have included it. Also,
PETITIONER was living 200 yards from the local office of the deputies.

Page 28

30. Indeed, it is diabolical for a group to affect one mentally with hyperthermia and other excessive
stresses, then to accuse one of not having appropriately acted on time to appeal the confusing order of
RESPONDENT Judge Ptomey. PETITIONER respectfully asks the Court to stop them and order them to
compensate him; to request all public and private law enforcement departments (including DHS, CIA,
NSA, FBI, ICE/Border Patrol, private security companies, vigilante organizations such as Neighborhood
Watch) to protect him from any harm; to demand the criminal prosecution, arrest, detainment, and
permanent sterilization, under battery, cruelty, terrorism and other laws of all involved in his false arrest
and imprisonment, torture, in the conspiracy to deprive him of constitutional rights, in the causation of his
injuries, and in other crimes not yet identified. PETITIONER offers to volunteer to monitor legally and
ethically such offenders and other suspects of future abuses. In case the Court is not convinced about their
malevolent and corrupt intent, PETITIONER has included the accusations of negligent and careless acts.
31. Indeed, RESPONDENTS IN GROUP RR worsened PETITIONER’S
32. -mental and emotional injuries when RR caused him over-heating or over-cooling; when PETITIONER
could not pay the bail bond because the Police Officers who arrested him did not allow him to take his
phone and credit card to pay the bond, even though PETITIONER had not memorized any phone numbers
of friends to call from jail for assistance; when PETITIONER could not go to take the Graduate
Management Admission Test as planned; when PETITIONER could not take care of his anchored boat;
when PETITIONER suffered the other abuses; and when PETITIONER suffered a loss of his reputation
due to the wrongful arrest.
33. -right elbow and right shoulder issues and upper and lower back issues when a deputy handcuffed his
hands too tight behind his back for ~30 minutes, which worsened his cartilage, ligaments, and tendons
injuries, which manifest as scary pain inside the elbow joint during activities, for example, after carrying a
regular laptop backpack by hand for T, during even only one pull-up or during 5 minutes of medium
rowing effort; which manifest as scary pain in his right shoulder area during even only one push of a 6x2x4
wood bar.

Page 29

34. -upper and lower back and neck issues when a deputy transported him 100 miles from Tavernier to Key
West in a bus without the proper shock-absorbing system, which worsened his permanent damages of the
cartilages, ligaments, and tendons, which manifest as alarming pain inside an upper vertebral joint after
carrying a regular laptop backpack for only 20' and as the painful stopping of his breathing after around
two hours of activity that requires bending of his back every 5 minutes to lift objects under 20 pounds.
35. -upper and lower back and neck issues when a deputy did not provide a proper mattress and pillow in
the jail.
36. Skin pores with visible blood were one of PETITIONER'S symptoms of extreme stress, most probably
caused by haematohidrosis; the sweat glands all over our body are supplied by small blood vessels. Under
extreme stress, including hyperthermia, these vessels can break, and blood can leak.
37. The injuries that RESPONDENTS caused him have permanently impaired his intellectual and physical
activities. Indeed, unfortunately, PETITIONER has not been able to maneuver and control a sailboat
anymore, which should have been his main business at the time of the incidents; PETITIONER has not
been able to keep other physically demanding jobs; PETITIONER has not been able to get an office or
other job due to his mental issues which include headaches, depression, anxiety, anger, distrust; thus
PETITIONER has had no proper income for a decently comfortable life. In addition, the quality of his life
has diminished abruptly and diabolically severely because PETITIONER has not been able anymore
without pain to row even only his small 8.5’ tender boat against a current caused by even only 15 mph wind
to reach his live-aboard sailboat where PETITIONER should get every night in order to sleep, sailboat
which is anchored in the small, 1 mile wide, Tarpon Basin in Key Largo, FL; PETITIONER has not been
able anymore without pain to climb even only 4' to get on his sailboat from his tender boat, and properly
swim, ride a bicycle, do aerobic or weight lifting exercise, dance or backpack. PETITIONER had to stop
operating and living in a boat. PETITIONER cannot fulfill any longer his plan to sail with his sailboat to
Hawaii, Tahiti, Seychelles, Madagascar, Crete, Malta, Sardinia, Iceland, other unique islands, and around
the coasts of all the continents.

Page 30

38. As no adequate recovery public housing was available, PETITIONER had to sleep in improper shelters
or in his car when he could not row to his live-aboard sailboat.
39. PETITIONER has been a serious person who has worked hard, aimed for the highest achievements,
had many successes, and his resume proves it:
40. "EDUCATION
41. Master of Accountancy, Taxation 08/98 - 12/00
42. University of Georgia, Athens, GA, USA: •Was "Presidential Scholar" for A in each class during his
second semester; •Received merit student loan all semesters.
43. Master in Financial Economics and Management 09/92 - 06/97
44. The Academy of Economic Studies, Bucharest, Romania: •Majors: Finance, Banking, and Accounting;
•Diploma Thesis (The Financial Analysis of the Company) Grade: 9/10 (3.8/4); •Admission Exams GPA:
9.15/10 (3.9/4; top 1.5%; the admission percentage was 16%) ^Received merit scholarship all semesters.
45. PROFESSIONAL DEVELOPMENT AND QUALIFICATIONS:
46. •Licensed Certified Public Accountant (CPA) in GA, USA, in 2003.
47. HONORS AND ACTIVITIES: • volunteered: -for CILK, Key Largo, FL, USA (cilsf.org): have guided
Social Security customers regarding their benefits and responsibilities in 2013; -for Christian Students
Assoc., Bacau, RO: have promoted the Christian living and spirituality in the city during 2010-2012; -for
the International Foundation for Global Studies, Athens, Georgia, USA: have prepared the financial
statements, tax returns, and budgets for the years 1998 - 2000 • placed in the Romanian National Physics
Team (the top 15 students of his age group in the nation) in 1988, and in the top 1 -5 positions in regional
Physics and Mathematics competitions in the years 1986-1990." However, the brain injuries that
RESPONDENTS caused PETITIONER or aggravated have impaired his mind; unfortunately, his recurring
headaches and other mental problems such as nausea, focus issues, memory weakness, and depression stop
him from rigorous intellectual activities. The Master's Degrees which PETITIONER has received in the
years 1997 and 2000 prove that PETITIONER had had the mental abilities to do any intellectual activities

Page 31

including getting a Law Degree or running an accounting business, which PETITIONER cannot adequately
do anymore.
48. As a further direct and proximate result of the injuries sustained due to the aforementioned negligence
or carelessness or malevolence or corruption of RESPONDENTS, PETITIONER suffered severe new
mental and non-mental body injuries and worsening of old health issues; endured and will endure having
periodic treatments, experienced pain and suffering therefrom; has incurred medical expenses in the past
and will continue to incur such expenses in the future; suffered physical handicap, disability, mental
anguish, loss of time, loss of past earnings, loss of current earnings and earning capacity in the future,
aggravation of preexisting injuries and conditions, inconvenience, loss of capacity for the enjoyment of
life; and other unknown yet damages that the law would allow. All of these injuries are permanent and
continuing in nature.
49. RESPONDENTS illegally have discriminated against him and injured him because the color of
PETITIONER'S skin turns -due to a protective reaction- from white to bronze3 during exposure to sunlight-,
PETITIONER’S health status has been disabled, PETITIONER’S religion is Rational-Scientific Christianity
and Human Rights, PETITIONER’S political preference is for Ethical Democracy and Laws, PETITIONER
was born in Romania (current member of EU and NATO), outside USA (PETITIONER became a citizen of
the USA by naturalization in 2002), PETITIONER’S ethnic origin is Moldovan-Romanian.
50. His health issues -including those which RR and the other RESPONDENTS caused or aggravatedinduced other, subsequent brutal injuries to him, which almost killed him, and added to his permanent pain
and suffering; see the medical records at the links above. A summary is at https : //ldrv.ms/x/s !
AoOWvvOQcbRYauY8d6Q4 lWLDshViUw (PETITIONER respectfully asks the Court to excuse that
3 "the Whiter one appears, the more the suspect will be protected from police force."
https://journals.sagepub.CQm/doi/abs/10.1177/1948550616633505: "whites received, on average, longer
prison sentences if they had Afrocentric features." https://psmag.com/news/cops-usc-lcss-force-onsuspects-who-iook-reallv-reallv-whiTc. PETITIONER’S skin is white only during winters, but his education
made him be against crimes during all seasons, no matter how suntanned his skin is.
Page 32

some cells are empty, but PETITIONER has had no time to finalize it; and to let him know if the Court
needs it completed.).

REASONS FOR ALLOWANCE OF THE WRIT
1. PETITIONER respectfully asks the Court to allow the Appeal and approve the Motion to Proceed In
Forma Pauperis on Appeal because the PETITIONER lacked adequate funds to pay the docket fees; truly,
Medicaid allows the applicant's equity value in their home (fair market value minus debts if owned singly)
to be $595,000 or less, although some states use a higher limit of $893,000, before charging fees, and the
PETITIONER has had a lot less than $595,000 to purchase his first home.
2 . PETITIONER respectfully asks the Court to accept the case and further amendment of the Amended
Complaint because SPATARU’s allegations are not frivolous, and his further amendment of the Amended
Complaint is not futile. Indeed, PETITIONER SPATARU consulted with and complained to the jail doctor
about his headaches and his blood being visible in his skin pores; and to Dr. Sandoval and other doctors,
for example, at Jackson Hospital in Miami, about his headaches and other continuing issues.
3. The RESPONDENTS violated US Const. Amend. VIII which prohibits cruel and unusual punishment.
If they do not compensate PETITIONER for his injuries, they will continue to torture him and others, even
though it is battery, intentional infliction of emotional distress, and against US Const. Amend. VIII. Thus,
they will cause more poverty and other social problems, which will make all people suffer.
4 . The RESPONDENTS IN GROUP LE violated the Baker Act -Fla. Stat. § 394.459-, when they used
unacceptable force, including handcuffs, on the PETITIONER, a patient suffering from and having
treatment for depression and pain, which they knew or should have known. If the RESPONDENTS'
records do not show the details presented in the documents that the PETITIONER sent to Courts, the
RESPONDENTS eliminated adverse evidence to hide their abuses after neglecting, assaulting, battering,
falsely arresting, unreasonably injuring, and otherwise violating the rights of SPATARU. The
RESPONDENTS fabricated evidence. The RESPONDENT OFFICERS arrested SPATARU without
Page 33

■ probable cause as a matter offact because he had not committed any offense whatsoever. Indeed,
RESPONDENTS’ fabricated evidence would be disproved by video evidence. Similarly, the
RESPONDENT OFFICERS arrested him without probable cause as a matter of law because officers may
not arrest a citizen when no crime has been committed or is in the process of being committed.
RESPONDENT JUDGE PTOMEY illegally accepted the fabricated evidence of the RESPONDENT
OFFICERS as accurate. RESPONDENTS are part of a criminal "enterprise" to profiteer from the
corruption in public works, unlawful fines, and other illegal actions.
5. The RESPONDENTS IN GROUP LE used excessive force and negligent conditions under the color of
law, and the PETITIONER has proved all the causal elements; PETITIONER did nothing to justify any
offensive actions and force, he suffered foreseeable and direct harm, he was a member of a specific,
defined or limited group by ethnic and national origin, color -his skin tans during exposure to sunlight-, the
law enforcement officers willfully disregarded his safety, and the law enforcement officers acted under the
color of law to create a danger that would not have been present absent such conduct. Indeed, if the abusive
LEEs and SSs are not punished, they will cause more injuries and brutality; see cases at
http: / /www. aele . orq/law/Diaests / civil38 . html. Indeed, there are increasing reports in
the media of aggressive officers who attack specific individuals without provocation when the person is of
a particular ethnicity - https : / /www. usccr. aov/pubs / 2Q18 /11-15-Police-Force . pdf.
https://www.ha.ora/leaal-artides/the-historv-of-police-brutalitv-andwhat-it-means-for-vou-4034 4. At all times material, RR and SDMC had a duty to design
reasonably safe procedures to hire, train, test, supervise, evaluate and otherwise control the deputies who
injured the PETITIONER not to injure and wrongly arrest him; to design reasonably safe transportation
and detaining procedures and conditions, and to maintain and keep all conditions reasonably safe; to design
and conduct reasonably checks of employees and conditions; to design, test, and implement a proper .
system for reporting emergency issues, such as car A/C’s malfunction; and to warn of perils.
6. The RESPONDENTS IN GROUP RR battered him by intentionally harmful conditions, including
Page 34

injuring hyperthermia, and the PETITIONER has proved the causal elements of aggravated battery: 1.
Group RR intentionally committed acts that resulted in severe harmful contacts with him; 2. PETITIONER
did not consent to the harmful contacts by Group RR; 3. The harmful contacts by Group RR caused severe
injuries, damage, loss, and harm to him. The battery is a felony in Florida if it causes great bodily harm;
indeed, Group RR caused him permanent disabilities which are great bodily harm.
7. The RESPONDENTS IN GROUP RRa gravely assaulted him when DK threateningly shouted to him to
"get out of' Monroe County, which PETITIONER has interpreted as an order to avoid further abuses. Due
to the RESPONDENTS' abuses, PETITIONER did not return to MC for more than one day -he had to
check his mail at CILK- per month after 2019 and still is afraid to return or visit MC, and especially
Marathon, MC, where RESPONDENT DK works now. Indeed, the PETITIONER has proved the causal
elements of aggravated assault.
8. RESPONDENTS caused him intentional infliction of emotional distress (IIED), and PETITIONER has
proved the essential elements of TTED: (1) RR and the other RESPONDENTS' extreme and outrageous
conduct, including aggravated assault, with either the intention of, or reckless disregard for, causing
emotional distress, (2) his having suffered severe or extreme emotional distress and (3) actual or proximate
causation.
9. In case the Court is not convinced about RESPONDENTS' malevolent or corrupt intent, PETITIONER
accuses them of careless acts and omissions. They have failed to exercise the standard of care
commensurate with and expected from professionals in the community, county, region, State of Florida,
USA, and United Nations Countries. PETITIONER has proved "by a preponderance of the evidence" or
"more likely than not" the four elements of the cause of action for negligence: 1) the RESPONDENTS
owed a duty of care, 2) the RESPONDENTS' duty of care was breached by the RESPONDENTS, 3) the
RESPONDENTS' negligence was the cause of PETITIONER'S new injuries and the aggravation of old
injuries, and 4) PETITIONER was in fact injured.
10 . US Const. Amend. V guarantees the right to due process. Indeed, this Court will encourage future
Page 35

abuses by Courts if this Court dismisses the PETITIONER’S complaint without due process for abusive
reasons, including unreasonable fees (or failure to appeal a judgment on time even though a conspiracy
group has affected him mentally‘with hyperthermia and other excessive stresses, which had impaired the
PETITIONER'S cognitive skills, including reasoning, his adequate perception of his own cognitive decline
at his arraignment in 2015 and afterward, and his understanding of the legal process and of his rights and
obligations). The dismissal of his case has been in conflict with the decisions of this Court in Hazel-Atlas
Glass Co. v. Hartford-Empire Co., 322 U. S. 238, 248, which stated that courts must exercise their equity
powers in order to "relieve hardships ... arising] from a hard and fast adherence" to more absolute legal
rules. "Mere neglect or inadvertence in complying [...] is rarely enough to justify dismissal."
Commonwealth Fed. Sav. and Loan Ass'n v. Tubero, 569 So. 2d 1271, 1273 (Fla. 1990). In addition, "the
court's discretion can be properly exercised only after the court has made an adequate inquiry into all of the
surrounding circumstances." Richardson v. State, 246 So.2d at 775 (Fla.1971), and "the interests of justice
would be better served by addressing the merits." Overton v. Jones, 155 F. Supp. 3D 1253; "petitioner has
demonstrated a departure from the essential requirements of law resulting in a miscarriage of justice in this
case." United Auto, v Cty. Line Chiro, 8 So. 3d 1258 (Fla. Dist. Ct. App. 2009).
11. US Const. Amend. VI states that "In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury [...] to have compulsory process for obtaining witnesses in his
favor, and to have the Assistance of Counsel for his defense." However, PETITIONER was detained for at
least six nights before the trial, and Judge Ptomey did not allow a jury and professional defending Counsel,
which were violations of his constitutional rights. US Const. Amend. XIV, Sec. 1 stipulates that "No State
shall make or enforce any law which shall abridge the privileges or immunities of citizens of the United
States; nor shall any State deprive any person of life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the laws." We need to stop, punish and try
to heal all offenders ASAP to prevent any future harm to anyone.
12. US Const. Amend. VI requests that "the accused shall enjoy the right [...] to be confronted with the

Page 36

witnesses against him; to have compulsory process for obtaining witnesses in his favor," but PETITIONER
was not allowed to confront in Court any person who had accused him of causing any destruction, making
them uncomfortable or being combative.
13. US Const. Amend. I guarantees the freedom of speech, including PETITIONER'S right to comment
publicly and ask others to help him sue MC and FL DOT for lack of required bike route signs, even if it
antagonized the decision-makers of MC. We need to be free to comment publicly about corruption due to
which many streets did not have a required bike route sign, and there were no adequate community services
such as victims funds, free or on credit recovery hospital/nursing home/hotel, health and legal care for
injured persons. We need to be free to comment about, and sue, potential criminals who infiltrated our
country's governments and public or private organizations.
14 . PETITIONER was snorkeling in front of his property to 100 feet of open water, which was allowed
by the CO Ch. 26, Art. IV. Sec. 26-98 (b); his property was his lawfully anchored live-aboard boat.
Therefore, the CO allowed him to snorkel, Sec. 26-98(a) did not apply, and the RESPONDENTS IN
GROUP LE arrested him without probable cause, which violates the Fourth Amendment of the US Const.,
42 USC § 1983, and Madiwale v. Savaiko, 117 F.3d 1321, 1324 (11th Cir. 1997); a cause of action for
damages may be asserted under § 1983, Brown v. City of Huntsville, Ala., 608 F.3d 724, 734 n.15 (11th Cir.
2010). A voluntary surrender to the authorities still constitutes a seizure under the Fourth Amendment.
Albright v. Oliver, 510 US 266, 271 (1994). PETITIONER respectfully asks the Court to punish all
offenders under 34 USC § 12601 and 18 USC §§ 241, 242, too.
15. PETITIONER was accused of, and arrested for, "trespassing by snorkeling" on 08/11/2015, which was
the sixth day after the start of the commercial lobster season on August 6, 2015, and not during the first
five days of the commercial lobster season as CO Ch. 26, Art. IV. Sec. 26-98(a) required for the infraction
to exist.
16. Indeed, US Const. Amend. IV guarantees "The right of the people to be secure in their persons,"
prohibits unreasonable seizures. The RESPONDENTS IN GROUP LE detained PETITIONER without a
Page 37

reasonable cause and warrant; therefore, they violated his constitutional right to freedom.
17. According to CO Ch. 26, Art. IV. Sec. 26-98 and 99, the citation should have been issued pursuant to
FS § 327.74 (uniform boating citations), but not for trespassing; furthermore, the penalty for snorkeling
[for lobstering] would have been $50, not to exceed $500.00, but not arrest, hyper- or hypo-thermic
detention and ~$600.
18 . PETITIONER did not, and could not, destroy any private or public property by swimming in public
water lawfully with or without a snorkel; PETITIONER had and has no intention to affect the environment
or trespass. Indeed, PETITIONER has never hunted for or caught any kind of lobster, including spiny
lobster, and has not even been able due to his injuries caused by a van that hit him in June 2013 in Key
Largo while PETITIONER had been lawfully riding his bicycle on the bike route. Indeed, PETITIONER
had used a snorkel -when PETITIONER took one- during his swimming to be able to detect ASAP any
dangerous sea wildlife and rocks to avoid injuries. Indeed, when PETITIONER had swum alone in isolated
areas in the past, wild creatures had bitten or stung him many times, and a threatening large fish with
killingly long and sharp teeth had come to him once, but PETITIONER had seen it early with his goggles
and had been ready to confront it with a protective spear and protect himself, which made it go away; in
addition, a neighbor boater, Gregory Jennings, had said he had seen a crocodile in the area in the spring of
2015 and the local newspaper had printed articles about dangerous crocodiles and snakes in the region; see
descriptions and graphic pictures at ahttps : //ldrv.ms/b/s
AoOWvvQOcbRYaas7C7aVAEiznl2ria?e=JQaCEr. which show other persons' encounters, many
even deadly, with wild sea creatures; therefore, asking people to swim away from other swimmers and
without goggles and snorkel is a crime that should be punished. Indeed, PETITIONER had no adequate
equipment to catch lobsters or to cause destruction of property or deleterious environmental effects.
PETITIONER used goggles and snorkel to protect himself and the environment.
19. Florida Constitution, Article X, Section 11 allows a person to swim and use beaches below the mean
high water lines with or without a snorkel; in addition, "Florida courts have recognized [...] bathing as
Page 38

protected public interest" -Florida Bar Journal, Sovereignty Lands in Florida: It’s All About Navigability
(Part T), January 2002, Volume LXXVI, No. 1, https : / /www. f loridabar . ora/news / tfbiournal/?durl=%2Fdivcoin%2Fin%2Finiournal01.nsf%2FAuthor
%2F8 4 35 8 8 6355 60 0CBB852 5 6B2 8 007 6F4 39. Even though PETITIONER did not touch any Hi's
property because he swam below the MHWL, and HI does not own any water below the MHWL,
PETITIONER was arrested, detained and convicted under Fla. Stat. 810.08.2b (2015) for trespassing on
HTs property, which was wrong. Indeed, GROUP RR did not have reasonable cause to arrest and detain
him; and Judge Ptomey did not have reasonable cause to accuse and convict him.
20. Other people had been and were snorkeling in the area near Hampton Inn, but DK did not even warn
them, which was an implicit invitation for the PETITIONER to join the other snorkelers. DK arrested only
him, which was an abuse against US Const. Amend. XIV, Sec. 1, "nor shall any State [...] deny to any
person within its jurisdiction the equal protection of the laws."
21. If the PETITIONER illegally swam, there had been no sign on the beach of HI or buoy on the adjacent
water to warn swimmers of Mo. Co. CO, Ch. 26, Art. IV., Sec. 26-96 to 99; therefore, the local CO article
legally is not enforceable by LE.
22 . There are no lobsters in Tarpon Basin due to the lack of rocky bottom for them to hide, and FSC
ruled that a law cannot be upheld where there is zero evidence that it actually does what it was purportedly
intended to do. N. BrowardHosp. Dist. v. Kalilan, 219 So. 3d 49, 57 (Fla. 2017) (holding law
unconstitutional because "there [wa]s no evidence [...] justifying [it]"); Estate ofMcCall v. US, 134 So. 3d
894, 909 (Fla. 2014) (plurality) (finding law unconstitutional because "the available evidence fail[ed] to
establish a rational relationship" between the law and its purported purpose); id. at 921 (Pariente, J.,
concurring) (finding same law unconstitutional because there was "no evidence ... that would justify" it.
id.). Indeed, the purpose of the Mo.Co. CO, Ch. 26, Art. IV Sec. 26-98 (a) is to harass and stop illegally
and abusively the snorkelers who do not pay for a room at HI or other hotels or vacation houses, from
using the safe public water near the shore, even if they enter the water from lawfully anchored boats or
Page 39

from public, government-owned areas, which is a criminal conspiracy and racketeering.
2 3 . Even though the title of ARTICLE IV is "DIVING AND SNORKELJNG PROHIBITED DURING
LOBSTER MINI-SEASON," ARTICLE IV Sec. 26-98 (a) also prohibits snorkeling during the first five
days of the commercial lobster season; thus, the ordinance was not and is not lawful due to its limiting title.
2 4 . According to the Supreme Court decision, Marbury vs. Madison, 1803, which has never been
challenged, much less overturned, any law that is passed in the United States, or any of its territories,
which is contrary to the Constitution is void. This would apply to rules, regulations, ordinances, and
directives too.
25. 42 USC § 2000d, et seq. prohibits discrimination on the grounds of race, color, or national origin.
PETITIONER was born outside the USA (PETITIONER became a citizen of the USA by naturalization in
2002); thus, PETITIONER was viewed as a helpless "alien" and abused. Indeed, the offenders
discriminated against him based on his national origin and broke the law. Moreover, the United Nations’
Universal Declaration of Human Rights Article 1. requests all to "act towards one another in a spirit of
brotherhood."
26. 34 CFR Part 104.4 prohibits discrimination against people with disabilities, and PETITIONER was
partially disabled by past "accidents" at the time the abusers started his torture. Therefore, the offenders
discriminated against a person with disabilities and broke the law.
27. The government has prosecuted alleged "swatters" on charges including obstruction of justice (via
destruction of evidence: 18 USC § 1512; via retaliation: 18 USC § 1513), access device fraud (18 USC §
1029), interstate threats or extortion (18 USC § 875), computer misuse (18 USC § 1030), and the malicious
conveying of false information (likely 18 USC § 2292). PETITIONER respectfully asks the Court also
crimanlly to prosecute the RESPONDENTS TN GROUP HI.
CONCLUSION
PETITIONER respectfully asks the Court to grant his petition for a writ of certiorari.

Page 40

Respectfully submitted,
/s/ Valentin Spataru

c

..........

..• -

c/o CILK - Center for Independent Living
103400 Overseas Hwy. #243, Key Largo, FL 33037
Mobile cell phone: 305 301 3001, Email: valentin.spataru.macc.cpa@gmail.com, valespa@outlook.com
Dated: 02/15/2021. This petition is timely filed. PETITIONER respectfully asks the Court to construe it as
filed within the allowed period if the mailing company delivers it late due to Covid or other emergency
causes.

APPENDICES
Appendix A - The United States Court of Appeals for The Eleventh Circuit (USCA11) dismissed
Petitioner's Appeal and Motion to Proceed In Forma Pauperis on Appeal because the PETITIONER has not
paid the docket fees.

A1-3

Appendix B - The United States District Court for the Southern District Of Florida (USDC SDF) wrongly
dismissed the case with prejudice on 04/23/2020

A4-7

Appendix C - Judge Garcia filed the dismissal of the PETITIONER’S claim on March 6, 2017.

A8

Appendix D - The GMAT report shows how lousier PETITIONER did for the last section, the integrated
reasoning, two months after the wrongful arrest and after he had studied for almost nine months, 12-15
hours a day, almost every day.

A9

Page 41

